NO.

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

MARQUIS WILSON,
Petitioner,
v.

UNITED STATES OF AMERICA
Respondent.

 

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

 

CERTIFICATE OF SERVICE

 

Alison Brill, Esq., a member of the Bar of the Third Circuit Court of Appeals
and appointed under the Criminal Justice Act, 18 U.S.C. § 3006A et seq., certifies
that, pursuant to the Supreme Court of the United States Rule 29.5, she served the
original and ten (10) copies of the within Petition for Writ of Certiorari to the
United States Court of Appeals for The Third Circuit and the original and ten (10)
copies of the within Motion For Leave to Proceed in Forma Pauperis by United
States mail, on the Clerk of the Supreme Court, Supreme Court Building, 1 First

Street, N.E., Washington, D.C. 20543 on the 16th day of October 2020. At the same
date and time, copies of same were forwarded by first class mail to:

Solicitor General of the United States
Room 5616

Department of Justice

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

Robert Zauzmer, AUSA

United States Attorney’s Office, Eastern District of Pennsylvania
615 Chestnut Street, Suite 1250

Pennsylvania, PA 19106

Patricia S. Dodszuweit, Clerk

United States Court of Appeals for the Third Circuit
21400 United States Courthouse

601 Market Street

Philadelphia, Pennsylvania 19106-1790

Marquis Wilson

Register Number 71390-066
FCI Allenwood Medium

Federal Correctional Institution
P.O. Box 2000

White Deer, PA 17887

r , fy
Chul [Sr
Alison Brill, Esq. /
Assistant Federal Public Defender

Office of the Federal Public Defender
22 South Clinton Avenue

Station Plaza #4, Fourth Floor
Trenton, New Jersey 08609

(609) 489-7457

alison_brill@fd.org

Attorney for Petitioner
Marquis Wilson

Dated: October 16, 2020
